CERTIFICATE OF WORD COUNT
No. TBD
Jason Edward Rheinstein,
Petitioner(s),
v.
'

,Attorney Grievance Commission of Maryland,
Respondent(s).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
.1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the JASON EDWARD
RHEINSTEIN PETITION FOR WRIT OF CERTIORARI contains 6727 words, including the parts of the brief
that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

July 25, 2019

SCP Tracking: Rheinstein-P.O. Box 1369-Cover White

